 SIGAR                                              Special Inspector General for
                                                     Afghanistan Reconstruction




                                                              SIGAR Financial Audit 14-11




         Department of State’s Demining Activities in Afghanistan:
         Audit of Costs Incurred by Afghan Technical Consultants




                                                           DECEMBER
                                                                           2013

SIGAR 14-11-FA/Demining Activities in Afghanistan
December 3, 2013


The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

This letter transmits the results of our audit of costs incurred by Afghan Technical Consultants (ATC) for five
Department of State (State) grants to execute demining activities in various regions in Afghanistan. 1 The audit
covered the period April 1, 2007, through August 31, 2012, and was performed by Crowe Horwath. It covered
$13,422,356 in expenditures.

ATC’s program called for conducting operations with specially trained mine detection dogs from 2007 to 2012.
ATC reported that the program cleared over 2 million square meters of land by locating and destroying anti-
personnel mines, unexploded ordnance, fragments, and anti-tank mines. ATC trained human demining teams
as well as dogs and employed more than 30 individuals.
The objectives of this financial audit were to
    •    render an opinion on the fair presentation of ATC’s Fund Accountability Statement; 2
    •    determine and report on whether ATC has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in ATC’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Crowe
Horwath’s audit results and found them to be in accordance with generally accepted government auditing
standards.
Crowe Horwath found that the Fund Accountability Statement presented fairly, in all material respects,
revenues received and costs incurred under the grants and identified no findings from prior audits or
assessments for follow-up or corrective action. Crowe Horwath identified six internal control weaknesses and
five instances of material noncompliance with either the terms of the grants or applicable regulations. Where
internal control and compliance findings pertained to the same matter, they were consolidated within a single




1 State grants S-PMWRA-07-006 ($1,200,000); S-PMWRA-08-GR-002 ($2,000,000); S-PMWRA-09-GR-015 ($2,850,000);

S-PMWRA-10-GR-002 ($4,000,000); and S-PMWRA-11-GR-010 ($4,000,000) funded the demining activities.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
finding. These findings prompted the auditors to question a total of $202,854 in unsupported costs. 3 The audit
did not identify any ineligible costs. 4 See table 1 below.
Table 1 - Summary of Questioned Costs
                 Category                     Questioned Costs Total             Ineligible              Unsupported

 Personnel                                                      $38,956                                            $38,956

 Travel                                                         $23,838                                            $23,838

 Equipment/Supplies                                             $26,634                                            $26,634

 Non-Expendable Equipment                                      $113,426                                           $113,426

 Totals                                                        $202,854             $0                            $202,854



In addition, Crowe Horwath identified two instances in which costs were not questioned, but where interest
may be payable to the U.S. government. Specifically, the audit found that ATC had not remitted an estimated
$8,762 in interest revenue earned on advances given by State.
Given the results of the audit, SIGAR recommends that the Grants Officer:
     1. Determine the allowability of and recover, as appropriate, $202,854 in questioned costs identified in
        the report.

     2. Recover, as appropriate, the estimated $8,762 in interest revenue earned from advances provided.
     3. Advise ATC to address the six internal control findings identified in the report.

     4. Advise ATC to address the five compliance findings identified in the report.
We will be following up with the Department of State to obtain information on the corrective actions taken in
response to our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction



(F-022)



3 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
4 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by State to make a final determination regarding allowability.




                                                           2
         Afghanistan Technical Consultants

           Fund Accountability Statement

Demining Projects for Various Regions of Afghanistan

For the Period April 1, 2007, through August 31, 2012

    (With Independent Auditor’s Report Thereon)
SIGAR                                                   Afghan Technical Consultants




Table of Contents
Transmittal Letter .......................................................................................................................................... 1
Summary ....................................................................................................................................................... 2
INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT ....................... 6
FUND ACCOUNTABILITY STATEMENT ..................................................................................................... 8
NOTES TO THE FUND ACCOUNTABILITY STATEMENT ......................................................................... 9
INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL .......................................................... 13
INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE ...................................................................... 15
SECTION I - SCHEDULE OF FINDINGS AND QUESTIONED COSTS .................................................... 17
SECTION 2 – Summary Schedule of Prior Audit, Review, and Assessment Findings .............................. 24
APPENDIX A – Schedule of Property and Equipment Stolen or Destroyed .............................................. 25
APPENDIX B – Imputed Interest Calculation Pertaining Resulting from Excess Cash Balances .............. 31
APPENDIX C - Views of Responsible Officials ........................................................................................... 37
APPENDIX D – Auditor’s Rebuttal .............................................................................................................. 38




                                                               www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP

Crowe Horwath LLP is an independent member of Crowe Horwath International, a Swiss verein. Each member firm of Crowe Horwath International is a
separate and independent legal entity. Crowe Horwath LLP and its affiliates are not responsible or liable for any acts or omissions of Crowe Horwath
International or any other member of Crowe Horwath International and specifically disclaim any and all responsibility or liability for acts or omissions of
Crowe Horwath International or any other member of Crowe Horwath International. Crowe Horwath International does not render any professional
services and does not have an ownership or partnership interest in Crowe Horwath LLP. Crowe Horwath International and its other member firms are
not responsible or liable for any acts or omissions of Crowe Horwath LLP and specifically disclaim any and all responsibility or liability for acts or
omissions of Crowe Horwath LLP.
SIGAR                                   Afghan Technical Consultants                                           1




                                                                                 Crowe Horwath LLP
                                                                                 Independent Member Crowe Horwath International

                                                                                 1325 G Street NW, Suite 500
                                                                                 Washington D.C. 20005-3136
                                                                                 Tel 202.624.5555
                                                                                 Fax 202.624.8858
                                                                                 www.crowehorwath.com



Transmittal Letter
November 21, 2013

To the Board of Directors and Management of the Afghan Technical Consultants
P.O. Box #3, Main Post Office
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202

We appreciate the opportunity to provide to you our report regarding the procedures that we have
completed during the course of our audit of the Afghan Technical Consultants’ (“ATC”) grants awarded by
the United States Department of State. The grants – S-PMWRA-07-006, S-PMWRA-08-GR-002, S-
PMWRA-09-GR-015, S-PMWRA-10-GR-002, and S-PMWRA-11-GR-010 – funded the demining activities
in various regions of Afghanistan during the period April 1, 2007, through August 31, 2012.

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Fund Accountability Statement, report on internal
control, and report on compliance. Accordingly, we do not express an opinion on the summary and any
information preceding our reports.

When preparing our audit reports, we considered comments, feedback, and interpretations of ATC
provided both in writing and orally throughout the audit planning and fieldwork phases. Management’s
final written responses have also been incorporated into the report. These responses, and supporting
documentation provided with management’s responses, were reviewed to determine if modifications to
the initial draft of the audit reports were needed. Any such changes have been made and are reflected
within this reporting package.

Thank you for providing us the opportunity to work with you and to conduct the financial audit of ATC’s
demining projects in various regions of Afghanistan.


Sincerely,



Bert Nuehring, CPA, Partner
Crowe Horwath LLP




                                         www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP
SIGAR                                    Afghan Technical Consultants                                     2




Summary
Background
The Afghan Technical Consultants (“ATC”) entered into five grant agreements with the United States
Department of State (“DoS”) to purchase equipment, supplies, and dogs needed to execute demining
activities in various regions of Afghanistan and to complete such demining activities. During the period
April 1, 2007, through August 31, 2012, ATC operated under the following grants (total amount awarded
appears in parentheses):

     S-PMWRA-07-006 ($1,200,000);
     S-PMWRA-08-GR-002 ($2,000,000);
     S-PMWRA-09-GR-015 ($2,850,000);
     S-PMWRA-10-GR-002 ($4,000,000); and
     S-PMWRA-11-GR-010 ($4,000,000).

In total, $14,050,000 was awarded to ATC. $13,422,356 was expended on grant-related activities
(excluding any amounts returned to the United States Treasury).

ATC worked with the DoS to initiate a mine detection dog (MDD) operation beginning in 2007 and
continuing throughout the period. As reported in ATC’s progress reports over the course of the five years,
program accomplishments (unaudited by Crowe) included, but were not limited to:

     Clearing over 2 million square meters of impacted minefields using DoS-funded teams;
     Training and utilization of both human demining teams and mine dog sets;
     Locating and destroying anti-personnel mines, unexploded ordnance, fragments, and anti-tank mines;
     and
     Employing more than 30 individuals.

Work under each grant has concluded and each grant is closed.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Office of the Special Inspector General for
Afghanistan Reconstruction (“SIGAR”) to conduct a financial audit of the five grants awarded to ATC for
the conduct of demining activities in various regions of Afghanistan.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Task ordered by the U.S. Government for Reconstruction Activities in
Afghanistan:

Audit Objective 1 – Internal Controls

Evaluate and obtain a sufficient understanding of the audited entity’s internal control related to the award;
assess control risk; and identify and report on significant deficiencies including material internal control
weaknesses.




                                           www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP
SIGAR                                     Afghan Technical Consultants                                3



Audit Objective 2 – Compliance

Perform tests to determine whether the audited entity complied, in all material respects, with the award
requirements and applicable laws and regulations; and identify and report on instances of material
noncompliance with terms of the award and applicable laws and regulations, including potential fraud or
abuse that may have occurred.

Audit Objective 3 – Corrective Action on Prior Findings and Recommendations

Determine and report on whether the audited entity has taken adequate corrective action to address
findings and recommendations from previous engagements that could have a material effect on the fund
accountability statement.

Audit Objective 4 – Fund Accountability Statement

Express an opinion on whether the Fund Accountability Statement for the award presents fairly, in all
material respects, revenues received, costs incurred, items directly procured by the U.S. Government and
fund balance for the period audited in conformity with the terms of the award and accounting principles
generally accepted in the United States of America or other comprehensive basis of accounting.

Scope
The scope of the audit included the periods from April 1, 2007, through August 31, 2012, for the five
grants. The audit was limited to those matters and procedures pertinent to the grants that have a direct
and material effect on the Fund Accountability Statement (“FAS”) and evaluation of the presentation,
content, and underlying records of the FAS. The audit included reviewing the financial records that
support the FAS to determine if there were material misstatements and if the FAS was presented in the
format required by SIGAR. In addition, the following areas were determined to be direct and material and,
as a result, were included within the audit program for detailed evaluation:

     Allowable Costs;
     Allowable Activities;
     Cash Management;
     Equipment and Property Management;
     Period of Availability of Federal Funds;
     Procurement; and
     Reporting.

Methodology
To meet the aforementioned objectives, Crowe completed a series of tests and procedures to audit the
Fund Accountability Statement, tested compliance and considered the auditee’s internal controls over
compliance and financial reporting, and determined if adequate corrective action was taken in response
to prior audit findings and review comments.

For purposes of meeting Audit Objective 1 regarding internal control, Crowe requested and the auditee
provided copies of policies and procedures and verbally communicated those procedures that do not exist
in written format to provide Crowe with an understanding of the system of internal control established by
ATC. The system of internal control is intended to provide reasonable assurance of achieving reliable
financial and performance reporting and compliance with applicable laws and regulations. Crowe
corroborated internal controls identified by the auditee and conducted testing of select key controls to
understand if they were implemented as designed.



                                           www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP
SIGAR                                      Afghan Technical Consultants                                      4



Audit Objective 2 requires that tests be performed to obtain an understanding of the auditee’s compliance
with requirements applicable to the grants. Crowe identified – through review and evaluation of the grant
agreements executed by and between ATC and DoS, the Code of Federal Regulations, and relevant
circulars issued by the United States Office of Management and Budget (“OMB”) – the criteria against
which to test the FAS and supporting financial records and documentation. Using sampling techniques,
Crowe selected expenditures, drawdowns of cash completed through the Payment Management System,
procurements, inventories, assets that were disposed of, and quarterly financial and progress reports for
audit. Supporting documentation was provided by the auditee and subsequently evaluated to assess
ATC’s compliance. Testing of indirect costs was limited to determining whether indirect costs were
appropriately classified as such, were accurately calculated and charged to the grant, and were treated
consistently throughout the periods of performance.

To obtain an understanding of the nature of audit reports and other assessments that were completed
and the required corrective action, Crowe inquired with ATC regarding prior audits and reviews. There
were three such items completed. See Section 2 of Crowe’s audit report for details regarding the audit
reports issued by independent public accountants engaged to audit three of the grants, including matters
pertaining to the scope of the audits. The matters noted by the auditors are not repeated within Crowe’s
report.

With regard to Audit Objective 4 pertaining to the FAS, transactions were selected from the financial
records underlying the FAS and the transactions were tested to determine if the transactions were
recorded in accordance with the basis of accounting identified by the auditee; were incurred within the
period covered by the FAS and in alignment with specified cutoff dates; were charged to the appropriate
budgetary accounts; and were adequately supported.

Due to the location and nature of the grant-funded work, the financial records, vendors, and employees
being primarily located in Afghanistan, and ATC’s being physically located in the cooperating country,
certain audit procedures were performed on-site in Afghanistan, as necessary.

Summary of Results
Upon completion of Crowe’s procedures, Crowe identified seven findings because they met one or more
of the following criteria: (1) significant deficiencies in internal control, (2) material weaknesses in internal
control, and/or (3) noncompliance with rules, laws, regulations, or the terms and conditions of the grants.
Other matters that did not meet the criteria were either reported within a management letter dated
November 21, 2013, or were communicated verbally to ATC.

Crowe also reported on both ATC’S compliance with the applicable laws, rules, regulations, and the terms
and conditions of the grants and the internal controls over compliance. Two material weaknesses in
internal control, four significant deficiencies in internal control, and five instances of material
noncompliance were reported. Where internal control and compliance findings pertained to the same
matter, they were consolidated within a single finding. A total of $202,854 in costs was questioned as
described in Table A. Finding 2013-06 presents a finding regarding unallowable audit costs that were
charged to the grant through an indirect cost allocation. Due to the costs having been charged through
an indirect cost function, Crowe could not – within the scope prescribed by SIGAR - determine the
questioned cost amount.

Crowe identified two instances in which costs were not questioned, but where interest may be payable to
the U.S. Government. Finding 2013-04 includes $2,205 in interest that ATC reported as having earned
on cash advances - $1,455 of which is payable to the U.S. Government in accordance with Federal
regulations. Finding 2013-05 presents an estimated $7,307 in interest that is payable to the U.S.
Government based on ATC’s drawing down funds in excess of the amounts needed to fund immediate
cash disbursements. This amount is not presented as a questioned cost as the amount reflects foregone
interest that would have been received or earned by the Government and does not have an impact on the
costs incurred.

                                            www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP
SIGAR                                             Afghan Technical Consultants                                 5



Crowe also requested copies of prior audits, reviews, and evaluations pertinent to ATC’s financial
performance under the grants. Three such audit reports were provided. The audits did not include any
findings; however, the presence of depreciation expenses on non-expendable equipment was
emphasized by the auditors. ATC subsequently returned the funds associated with these charges to the
Government. No further matters for follow-up were identified.

Crowe issued an unqualified opinion on the Fund Accountability Statement.

                              TABLE A: Summary of Findings and Questioned Costs
                                                                                                  Cumulative
                                                                                 Questioned
      Finding Number                                  Matter                                      Questioned
                                                                                   Costs
                                                                                                    Costs
             2013-01                 Prior Approval of International Travel            $23,838       $23,838
             2013-02                 Stolen and Destroyed Property                    $140,060      $163,898
             2013-03                 Employee Time Records                             $38,956      $202,854
                                     Cash Management: Payments on the
             2013-04                                                                        $0      $202,854
                                     Advance Basis
                                     Cash Management: Excess Cash
             2013-05                                                                        $0      $202,854
                                     Balances
             2013-06                 OMB Circular A-133 Audit Reports            Indeterminable     $202,854
             2013-07                 Reporting                                              $0      $202,854
 Total Questioned Costs                                                                             $202,854

Summary of Management Comments

Management’s comments have been incorporated as Appendix C to this report, and appear as provided
by ATC. Management did not agree with findings 2013-01, 2013-02, 2013-03, and 2013-08, and
provided (1) additional documentation to support their position and (2) narrative explanations regarding
their interpretations of the applicable Federal regulations and grant terms and conditions. Management
concurred with the facts reflected in the remaining findings; however, ATC did provide additional context
pertaining to the limitations encountered due to the nature of the work, the procedures employed on the
project based on the recipient’s standard operating procedures, and provided additional supporting
documentation for review by the Department of State.

References to Appendices

The auditor’s reports are supplemented by three appendices. Appendix A presents a listing of
equipment and property items that were stolen or destroyed in an office fire as referenced in Finding
2013-02. The items shown in the appendix were provided by the auditee; Crowe Horwath does not take
responsibility for the contents of Appendix A. Appendix B includes a schedule presenting the
calculation of imputed interest resulting from excess cash balances as referenced in Finding 2013-05.
Appendix C includes the Views of Responsible Officials, which are management’s responses to the
findings presented within the report. Lastly, Appendix D includes the auditor’s rebuttal, which was
drafted in response to management’s comments.




                                                   www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP
                                                                   Crowe Horwath LLP
                                                                   Independent Member Crowe Horwath International




       INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT



To the Board of Directors and Management of the Afghan Technical Consultants
P.O. Box #3, Main Post Office
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Fund Accountability Statement

We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the fund accountability statement (Statement) of
the Afghan Technical Consultants (“ATC”) and related notes to the Statement, with respect to the
demining projects conducted in various regions of Afghanistan as funded by the United States
Department of State under grants S-PMWRA-07-006, S-PMWRA-08-GR-002, S-PMWRA-09-GR-015, S-
PMWRA-10-GR-002, and S-PMWRA-11-GR-010 for the period April 1, 2007, through August 31, 2012,
and have issued our report thereon dated November 21, 2013.


Management’s Responsibility for the Fund Accountability Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance with
the requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
(“SIGAR”) in Appendix V of Solicitation ID05130041 (“the Contract”). Management is also responsible for
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of the Statement that is free from material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Statement based on our audit. We conducted our audit
in accordance with auditing standards generally accepted in the United States of America and
Government Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the Statement
is free of material misstatement.




                                              (Continued)
                                                                                                                    6.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the Statement. The procedures selected depend on the auditor’s judgment, including the assessment of
the risks of material misstatement of the Statement, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.

Opinion

In our opinion, the Statement referred to above presents fairly, in all material respects, program revenues
and costs incurred for the indicated period in accordance with the requirements established by the Office
of the Special Inspector General for Afghanistan Reconstruction in Appendix V of the Contract and on the
basis of accounting described in Note 2.

Basis of Accounting

We draw attention to Note 2 to the Statement, which describes the basis of accounting. The schedule
was prepared by ATC on the cash basis of accounting, which is a basis of accounting other than
accounting principles generally accepted in the United States of America. Our opinion is not modified
with respect to this matter.

Restriction on Use

This report is intended for the information of the ATC, the United States Department of State, and the
Office of the Special Inspector General for Afghanistan Reconstruction. Financial information in this report
may be privileged. The restrictions of 18 U.S.C. 1905 should be considered before any information is
released to the public.


Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated November 21,
2013, on our consideration of ATC’s internal controls over financial reporting and on our tests of its
compliance with certain provisions of laws, regulations, grants, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on internal control over financial reporting or
on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be considered in assessing the results of our audit.



                                                           Crowe Horwath LLP

November 21, 2013
Washington, D.C.




                                                                                                            7.
                                                                          FUND ACCOUNTABILITY STATEMENT
                                                                                Afghan Technical Consultants
                                  Grant Numbers S-PMWRA-07-006; S-PMWRA-08-GR-002; S-PMWRA-09-GR-015; S-PMWRA-10-GR-002; and S-PMWRA-11-GR-010
                                                                    For the Period April 1, 2007, through August 31, 2012

                        S-PMWRA-07-006              S-PMWRA-08-GR-002            S-PMWRA-09-GR-015          S-PMWRA-10-GR-002          S-PMWRA-11-GR-010                     Totals                      Questioned Costs
                     Budget           Actual        Budget         Actual        Budget        Actual       Budget        Actual       Budget         Actual        Budget            Actual        Ineligible   Unsupported     Notes
Revenues           $1,200,000     $1,200,000       $2,000,000     $2,001,356     $2,850,000   $2,760,000    $4,000,000   $3,753,000    $4,000,000    $3,708,000   $14,050,000    $13,422,356         $       -    $          -       A



Costs Incurred
Personnel          $ 178,478      $ 154,265        $ 328,740      $ 307,986      $ 675,282    $ 631,324     $ 901,317    $ 900,596     $ 955,911     $ 961,300    $ 3,039,729    $ 2,955,471                $0         $38,956       B
Fringe Benefits          68,555        53,449           124,302        110,574     278,692      228,407       339,039      323,321       342,745       341,205      1,153,333         1,056,957             $0              $0
Travel                   84,855        67,344           134,010        143,951     262,965      275,570       371,935      379,811       409,193       409,644      1,262,958         1,276,321             $0         $23,838       C
Training                 21,492        21,862            40,560         34,496      79,840       97,851       119,400      117,297        56,400        62,583       317,692           334,090              $0
Equipment /
                                                                                                                                                                    1,089,584         1,111,289             $0
Supplies                 29,202        29,658            70,274         79,343     207,773      234,187       404,228      394,040       378,107       374,063                                                         $26,634       D
Non-Expendable
                                                                                                                                                                    2,472,312         2,534,254             $0
Equipment               533,167       535,275           641,661        683,062     471,755      450,166       468,869      484,608       356,860       381,143                                                        $113,426       D
Contractual               9,840        10,415                 -              -      77,200       74,116       103,836      104,408       130,236       128,927       321,112           317,867              $0              $0
Premises                                                 36,240         37,419            -             -            -             -           -             -        36,240            37,419              $0              $0
Operating and
                                                        412,912        343,929     496,680      488,694       999,133      738,313      1,067,904      755,342      3,124,053         2,440,271             $0
Other Expenses          147,424       113,993                                                                                                                                                                               $0
Indirect Cost           126,987       213,738           211,301        260,596     299,813      279,685       292,243      310,607       302,643       293,794      1,232,987         1,358,420             $0              $0
  Total Costs
                   $1,200,000     $1,200,000       $2,000,000     $2,001,356     $2,850,000   $2,760,000    $4,000,000   $3,753,000    $4,000,000    $3,708,000   $14,050,000    $13,422,356                $0        $202,854
Incurred


Fund Balance        $         -   $            -    $         -    $         -         ($0)          $0           ($0)         ($0)             $0         ($0)           $0                   $0

The accompanying notes to the Fund Accountability Statement are an integral part of this Statement.




                                                                                                                                                                                                                                    8.
                                   Afghan Technical Consultants
                             Notes to the Fund Accountability Statement
                        For the Period April 1, 2007, through August 31, 2012


Note 1. Basis of Presentation

The accompanying Fund Accountability Statement (the "Statement") includes costs incurred under grant
numbers S-PMWRA-07-006; S-PMWRA-08-GR-002; S-PMWRA-09-GR-015; S-PMWRA-10-GR-002; and
S-PMWRA-11-GR-010 for demining activities conducted in Afghanistan during the period April 1, 2007,
through March 31, 2012. Because the Statement presents only a selected portion of the operations of the
Afghan Technical Consultants (“ATC”), it is not intended to and does not present the financial position,
changes in net assets, or cash flows of ATC. The information in this Statement is presented in
accordance with the requirements specified by the Office of the Special Inspector General for Afghanistan
Reconstruction ("SIGAR") and is specific to the aforementioned Federal grants. Therefore, some
amounts presented in this Statement may differ from amounts presented in, or used in the preparation of,
the basic financial statements issued for ATC.


Note 2. Basis of Accounting

Expenditures reported on the Schedule are reported on the cash basis of accounting. Such expenditures
are recognized following the cost principles contained in OMB Circular A-122, Cost Principles for Non-
Profit Organizations, wherein certain types of expenditures are not allowable or are limited to
reimbursement.


Note 3. Foreign Currency Conversion Method

During the course of each project, ATC converts local currency amounts from Afghanis to United States
Dollars using an average exchange rate. The source of the exchange rates used in the conversions was
the exchange rate employed by the bank at the time of the exchange.


Note 4. Revenues

Revenues on the Statement represent the amount of funds received from the U.S. Department of State
through drawdowns made through the Payment Management System.


Note 5. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the budget line items presented within
the final, approved grant agreements and modifications, as applicable.


Note 6. Expendable and Non-Expendable Equipment

For purposes of the FAS, there are two line items referencing Equipment. “Non-Expendable Equipment”
is defined as goods or equipment with a cost of $500 or greater and having a useful life of one year or
more. “Expendable Equipment and Materials” is defined as goods or equipment with a cost of less than
$500 and having a useful life of less than one year.




                                              (Continued)

                                                                                                       9.
Note 7. Fund Balance

The fund balance presented on the Statement represents the difference between revenues earned and
costs incurred such that an amount greater than $0 would reflect that cash was received from the U.S.
Government that exceeds the actual costs incurred or charged to the grants and an amount less than $0
would indicate that costs have been incurred, but are pending additional evaluation prior to accompanying
payments being received from the U.S. Government.


Note 8. Currency

All amounts presented are shown in U.S. dollars.


Note 9. Interest Payments

$1,356 in interest was earned in the bank account containing the Federal cash receipts. The interest
income was used for programmatic purposes to fund additional project work on grant S-PMWRA-08-GR-
002. Due to the interest amount being directly associated with allowable project costs incurred, the
interest is presented on the Fund Accountability Statement.


Note 10. Periods of Performance

Pursuant to Federal regulations, allowable costs are limited to those obligations incurred during the period
of performance of a grant. The periods of performance for each grant began on the first day of each
fiscal year (April 1) and concluded on the last day of each fiscal year (March 31) with the exception of
Award No. S-PMWRA-11-GR-010, which was extended through August 31, 2012.


Note 10.Funds Returned / Re-Obligated

During the course of the projects, ATC returned certain funds to the U.S. Government. These amounts
are excluded from the costs incurred as reported on the FAS due to rejection of depreciation expenses of
non-current assets for the respective year 2009, 2010 and 2011. The sum of $629,000 was returned to
the U.S. Department of State.


Note 11. Status of the Projects

Each project funded by the grants referenced in the FAS is implemented and closed. No additional
charges are anticipated.




                                               (Continued)

                                                                                                        10.
Note 12. Questioned Costs

Questioned costs are those costs that are questioned by the auditor because of an audit finding:
(1) which resulted from a violation or possible violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the use of Federal funds, including
funds used to match Federal funds; (2) where, at the time of the audit, are not supported by adequate
documentation; or (3) where the costs incurred appear unreasonable and do not reflect the actions a
prudent person would take in the circumstances. Questioned costs are presented in the Statement in two
categories: unsupported and ineligible costs. Unsupported costs are those costs for which adequate or
sufficient documentation necessary for the auditor to determine the allowability and accuracy of costs was
not made available. Ineligible costs are those costs that the auditor has determined to be unallowable or
inaccurate and recommended for exclusion from the Statement and for a final determination by the DoS
Grants Officer.


Note 13. Subsequent Events

ATC Management has performed an analysis of the activities and transactions subsequent to the April 1,
2007, through August 31, 2012, period of performance. Management has performed their analysis
through November 21, 2013.




                                                                                                         11.
          Notes to the Questioned Costs Presented on the Fund Accountability Statement1


Note A. Questioned Costs – Depreciation Charges Pertaining to Non-Expendable Property

Prior audits of ATC’s grants provided by the Department of State noted that charges to the grant were
made for depreciation expenses. These amounts were unallowable and were subsequently returned to
the Government by ATC. The FAS only includes those costs that ATC believes are allowable and
therefore chargeable to the grants. Thus, the amounts that were unallowable for depreciation have been
removed from the revenue line and the costs are not reflected in the expenditure amounts. Budget to
actual differences are a function of this adjustment.


Note B. Allowable Costs: Employee Time Records

Finding 2013-03 questions $38,956 in personnel costs due to the lack of daily time records to support the
allocation of payroll costs.


Note C. Allowable Costs: International Travel Approvals

Finding 2013-01 questions $23,838 in travel costs incurred for international trips that were not pre-
approved by the Grants Officer.


Note D. Equipment and Property Management: Stolen and Destroyed Property

Finding 2013-02 questions $140,060 - the value of equipment and supplies that were stolen or destroyed
and, therefore, are no longer being used for the Federal project purposes.




1
  Notes to the Questioned Costs Presented on the Fund Accountability Statement were prepared by the auditor for
informational purposes only and as such are not part of the audited Statement.




                                                                                                              12.
                                                                           Crowe Horwath LLP
                                                                           Independent Member Crowe Horwath International




                   INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the Board of Directors and Management of the Afghan Technical Consultants
P.O. Box #3, Main Post Office
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the fund accountability statement and related
notes of the Afghan Technical Consultants (“ATC”) with respect to the demining projects conducted in
various regions of Afghanistan as funded by the United States Department of State under grants S-
PMWRA-07-006, S-PMWRA-08-GR-002, S-PMWRA-09-GR-015, S-PMWRA-10-GR-002, and S-
PMWRA-11-GR-010 for the period April 1, 2007, through August 31, 2012, and have issued our report
thereon dated November 21, 2013.

Internal Control over Financial Reporting

ATC’s management is responsible for establishing and maintaining effective internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute, assurance that the assets are safeguarded
against loss from unauthorized use or disposition; transactions are executed in accordance with
management’s authorization and in accordance with the terms of the grants; and transactions are
recorded properly to permit the preparation of the Fund Accountability Statement in conformity with the
basis of accounting described in Note 2 to the Fund Accountability Statement. Because of inherent
limitations in internal control, errors or fraud may nevertheless occur and not be detected. Also, projection
of any evaluation of the structure to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the design and operation of
policies and procedures may deteriorate.

In planning and performing our audit of the Fund Accountability Statement for the period April 1, 2007,
through August 31, 2012, we considered ATC’s internal controls to determine audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the Fund Accountability
Statement, but not for the purpose of expressing an opinion on the effectiveness of ATC’s internal control.
Accordingly, we do not express an opinion on the effectiveness of ATC’s internal control.




                                                (Continued)

                                                                                                                       13.
Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and, therefore, material weaknesses or significant deficiencies may exist that were
not identified. However, as described in the accompanying Schedule of Findings and Questioned Costs,
we identified certain deficiencies in internal control that we consider to be material weaknesses and
significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected, on a
timely basis. We consider the deficiencies noted in Findings 2013-03, and 2013-05 in the accompanying
Schedule of Findings and Questioned Costs to be material weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies noted in Findings 2013-02, 2013-04, 2013-06, and 2013-07 in
the accompanying Schedule of Findings and Questioned Costs to be significant deficiencies.

We noted certain matters that we reported to ATC’s management in a separate letter dated November
21, 2013.

ATC’s Response to Findings

ATC’s responses to the findings identified in our audit are attached as Appendix C to this report. We did
not audit ATC’s responses and, accordingly, we express no opinion on them.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results
of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the entity’s internal control. Accordingly, this communication is not suitable for any other
purpose.

Restriction on Use

This report is intended for the information of the Afghan Technical Consultants, the United States
Department of State, and the Office of the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be
considered before any information is released to the public.




                                                          Crowe Horwath LLP

November 21, 2013
Washington, D.C.




                                                                                                         14.
                                                                        Crowe Horwath LLP
                                                                        Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the Board of Directors and Management of the Afghan Technical Consultants
P.O. Box #3, Main Post Office
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the fund accountability statement and related
notes of the Afghan Technical Consultants (“ATC”) with respect to the demining projects conducted in
various regions of Afghanistan as funded by the United States Department of State under grants S-
PMWRA-07-006, S-PMWRA-08-GR-002, S-PMWRA-09-GR-015, S-PMWRA-10-GR-002, and S-
PMWRA-11-GR-010 for the period April 1, 2007, through August 31, 2012, and have issued our report
thereon dated November 21, 2013.

Management’s Responsibility for Compliance

Compliance with Federal rules, laws, regulations, and the terms and conditions applicable to the grant
agreements are the responsibility of the management of the Afghan Technical Consultants.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund Accountability Statement is free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts. However, providing an opinion on compliance with those provisions was not
an objective of our audit, and, accordingly, we do not express such an opinion. The results of our tests
disclosed instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and which are described in Findings 2013-01, 2013-02, 2013-03, 2013-
06, and 2013-07 in the accompanying Schedule of Findings and Questioned Costs.

We noted certain matters that we reported to ATC’s management in a separate letter dated November
21, 2013.




                                              (Continued)

                                                                                                                    15.
ATC’s Response to Findings

ATC’s responses to the findings identified in our audit are attached as Appendix C to this report. We did
not audit ATC’s responses and, accordingly, we express no opinion on them.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of
that testing, and not to provide an opinion on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the entity’s internal control
and compliance. Accordingly, this communication is not suitable for any other purpose.

Restriction on Use

This report is intended for the information of the ATC, the United States Department of State, and the
Office of the Special Inspector General for Afghanistan Reconstruction. Financial information in this report
may be privileged. The restrictions of 18 U.S.C. 1905 should be considered before any information is
released to the public.




                                                          Crowe Horwath LLP
November 21, 2013
Washington, D.C.




                                                                                                        16.
SECTION I - SCHEDULE OF FINDINGS AND QUESTIONED COSTS

Finding 2013-01: Allowable Costs: International Travel Approvals

Non-Compliance

Criteria: Direct charges for foreign travel costs are allowable only when the travel has received prior
approval of the awarding agency, per Attachment B, Item 51 of OMB Circular A-122.

Condition: During the review of costs charged to the grants, four foreign travel transactions were
identified. None of the four trips were pre-approved by the Grants Officer.

  Sample      Voucher                                                                           Amount
                             Date                Description of Charge / Particular
  Item #      Number                                                                             (USD)
               BPV-                      Travel to Non-duty station-Dubai and back to Kabul
     131                  18-Mar-09
               133                       after 15-day stay.                                       $6,165


               BPV-                      Travel to Dubai and Back to Kabul for the purchase
     132                  18-Mar-09
               134                       of vehicle for projects.                                 $4,932


               BPV-                      Travel to Non-duty station-Dubai and Back to Kabul
     130                  31-Dec-11
               131                       after 16 Night stay.                                     $6,576
               BPV-
                          23-Mar-10      15 night stay for visit to Dubai and back to Kabul.
     154       125                                                                               $6,165
  TOTAL:                                                                                        $23,838


Questioned costs: $23,838

Effect: The Government funded international travel that may or may not have been considered
reasonable and necessary by the Grants Officer.

Cause: ATC was unaware of the requirement that international travel be pre-approved by the awarding
agency. Historically, ATC had relied upon the approvals of the Director and/or Deputy Director for
international travel as per ATC's standard operating procedures. ATC also considered the budgetary
approval to be inclusive of all necessary travel expenses.

Recommendation: We recommend that ATC 1) refund the Government $23,838 in costs associated with
the foreign travel trips or otherwise provide evidence of the international travel having been pre-approved;
and 2) modify its standard operating procedures to require prior approval from the Grants Officer when
international travel is expected to be charged to Federal awards.




                                               (Continued)

                                                                                                        17.
Finding 2013-02: Equipment and Property Management: Stolen and Destroyed Property

Significant Deficiency and Non-Compliance

Criteria: ATC is responsible for implementing a control system "to insure adequate safeguards to prevent
loss, damage, or theft of the equipment," as per 22 CFR Part 145.34(f)(4).

Condition: ATC reported that a series of goods were either destroyed as a result of fire or were stolen.
The thefts occurred between 2011- 2013. Thus, the items could not continue being used for Federal
purposes. The losses were reported to the National Police and to the Department of State.

The following table presents a summary of the losses:

      Cause of Loss               Location               Quantity of Items             Value (USD)
Burned in Fire                  Gardiz District                 65                               $25,821
Burned in Fire                     Unclear                      24                                $5,693
Theft                          Paktiya Province                 10                                  $626
Theft                           Kabul Province                  15                               $24,415
Theft                          Kundoz Province                   2                                  $607
Theft                          Kundoz Province                  38                               $27,218
Theft                          Kundoz Province                   2                                  $694
Theft                              Paktiya                      27                               $27,956
Theft                           Kabul Province                   2                               $27,030
Total                                                                                           $140,060

See Appendix A for a listing of stolen and burned equipment, property, and supplies as provided by the
auditee.

Questioned costs: $140,060

Effect: ATC incurred additional costs to implement the Federally-funded projects thus requiring the
Government to invest greater funds than may have otherwise been necessary.

Cause: Per ATC, the fire resulted from a flame in the kitchen being expanded during a windy storm. The
thefts resulted from thieves breaking into vehicles and into offices.

Recommendation: We recommend that ATC provide to the DoS an explanation of the events causing the
fire and thefts and, if instructed by the State Department, remit payment for the destroyed and lost items.
ATC should also consider using security guards to oversee grant-funded assets and ATC’s offices during
non-working hours or times during which thefts have been noted as being more frequent.




                                               (Continued)

                                                                                                       18.
Finding 2013-03: Allowable Costs: Employee Time Records

Material Weakness and Non-Compliance

Criteria: Charges to awards for salaries and wages, per OMB Circular A-122, Attachment B, Section 8(m),
must be based on documented payrolls approved by a responsible official of the organization, and must
be supported by reports that meet the following standards:

    Reflect an after-the-fact distribution of the actual activity of each employee;
    Account for the total activity for which employees are compensated and which is required in fulfillment
    of their obligations to the organization;
    Signed by the individual employee or by a supervisor with first-hand knowledge of the activities
    performed by the employee;
    Be prepared at least monthly and coincide with one or more pay periods; and
    For nonprofessional employees, in addition to the above, must be supported by records indicating the
    total number of hours worked each day.

In accordance with 22 CFR Part 145.53, financial records, supporting documents, statistical records, and
all other records pertinent to an award are required to be retained for a period of three years from the
date of submission of the final expenditure report or, for awards that are renewed quarterly or annually,
from the date of the submission of the quarterly or annual financial report, as authorized by the
Department of State.

Condition: Timesheets were unavailable to support eleven personnel cost transactions totaling $38,956.
The employees included within the transactions included those in driver, guard, medic, and other
nonprofessional employee positions.

ATC was able to produce salary sheets that specify the total days in the pay period, number of days
worked, and number of days not worked. The sheets are prepared by the administration based on
timesheets, checked by a senior manager, signed by employees, and approved by the ATC Director. The
salary sheets did not, however, address the specific hours worked by nonprofessional employees. In the
absence of supporting timesheets, the salary reports and corresponding charges allocated to the grant
could not be tested. In addition, ATC did not retain the time sheets for the records retention period
required by Federal regulations; the records are needed to support financial charges to the awards.

Questioned costs: $38,956

Effect: Payroll costs charged to the grants may have been erroneously charged or misallocated. In the
absence of original time data, the full effect could not be determined.

Cause: ATC stated that the time sheets are not attached to the salary sheets and vouchers, but rather are
kept in site offices and at each work site as record of each team's attendance.

Recommendation: We recommend that ATC either locate and provide to the DoS the eleven employees’
supporting timesheets or return the $38,956 received from the U.S. Government as payment for the
employees’ time worked. We further recommend that ATC retain copies of the supporting time sheets
with associated salary reports to reduce the likelihood that the records are lost, destroyed, or otherwise
unavailable for audit.




                                               (Continued)

                                                                                                        19.
Finding 2013-04: Cash Management: Requirements for Payment on the Advance Basis

Significant Deficiency

Criteria: Pursuant to 22 CFR Part 145.22(b), "Recipients are to be paid in advance, provided they
maintain or demonstrate the willingness to maintain: written procedures that minimize the time elapsing
between the transfer of funds and disbursement by the recipient...". Further, in accordance with 22 CFR
Part 145.22(l), "...interest earned on Federal advances deposited in interest bearing accounts shall be
remitted annually to the Department [of State] for submission to the [United States Department of the]
Treasury. Interest amounts up to $250 per year may be retained by the recipient for administrative
expense."

Condition: ATC obtained payment from the U.S. Department of State on an advance payment basis.
However, ATC did not have a written policy or procedure explaining the steps that are taken to minimize
the time between receipt of funds from the Government and disbursement of cash for program activities.
In addition, ATC deposited the funds received from the Government into an interest bearing account. In
three of the five years under audit, ATC earned interest in excess of $250, but did not remit the excess
amount to the Government. The amount that should have been paid to the Government - net of $250 per
year that the recipient is eligible to retain - is $1,455.

                ATC Fiscal Year           Interest Earned            Amount to Remit
              2008-2009                                 $1,356                  $1,106
              2010-2011                                   $271                      $21
              2011-2012                                   $578                    $328
              TOTAL:                                    $2,205                   $1,455

Fiscal years 2007-2008 and 2009-2010 interest was not earned in excess of the $250 threshold and
these years are therefore not included in the table above.

Questioned costs: None. However, $1,455 in interest was determined to be payable to the Government.

Effect: The Government was denied interest revenue that could have been         dedicated to additional
services and projects.

Cause: ATC was unaware of the specific requirements applicable to the advance payments, including
interest payment matters. ATC also did not know the account into which interest should be transferred so
a payment was not possible.

Recommendation: We recommend that ATC develop a policy and document the procedure that provides
for the prompt disbursement of funds received from the U.S. Government. We further recommend that
ATC remit the $1,455 in interest income to the U.S. Government.




                                              (Continued)

                                                                                                    20.
Finding 2013-05: Cash Management: Drawdowns Exceeded Immediate Cash Needs

Material Weakness

Criteria: Per 22 CFR Part 145.22(b), "Cash advances to a recipient shall be limited to the minimum
amounts needed and be timed to be in accordance with the actual, immediate cash requirements of the
recipient organization in carrying out the purpose of the approved program or project. The timing and
amount of cash advances shall be as close as is administratively feasible to the actual disbursements by
the recipient organization for direct program or project costs and the proportionate share of any allowable
indirect costs."

Condition: For each grant, ATC obtained initial working capital cash balances to cover operating
expenses. Subsequent to the initial advances, funds are received based on a pre-determined allotment
pattern established within the SF 424 project budget documents. Over the course of the sixty-five months
included in the periods of performance, ATC obtained cash advances in excess of what was needed for
immediate cash needs during twenty-eight months. Excess cash was defined, for purposes of the audit,
as the cumulative amount of funds drawn down that exceeded the sum of the project's cumulative
expenditures as of month-end and the expenditures for the subsequent month. The amount of excess
cash ranged from $4,969 to $760,140.

Utilizing the daily interest rates identified by the United States Department of the Treasury for cash
management purposes, the amount of interest that would have been earned by ATC for drawdowns tied
to expenditures through August 2012 (the conclusion of the sixty-five month period assessed) is $7,807.
ATC is permitted to keep $250 in interest per year per Federal regulations, which reduces the anticipated
interest payable to $7,307 for the fiscal years 2008 through 2012.

ATC’s Director conducted periodic reviews of the projects’ cash positions and was responsible for
reviewing and approving cash drawdown requests submitted through the Payment Management System.
Documentation of the reviews and approvals was not provided, however. The reviews did not appear to
detect and resolve the excess cash issues.

See Appendix B for a schedule calculating the imputed interest amount.

Questioned costs: None. However, $7,307 in imputed interest was calculated as an estimate of interest
lost by the Government due to excess cash being held by the recipient.

Effect: The DoS had fewer program dollars available for programmatic purposes at the time of ATC's
draws due to the excess cash held by ATC.

Cause: ATC received initial working capital advances and subsequent allotments based on a pre-
determined amount of budgeted cash needs. The initial budgeted amounts did not align with actual cash
needs, thus causing the excess cash matter to be unresolved. ATC was unaware that the funds received
must be tied to actual costs, thus the cash position reviews did not resolve the cash balance issues.

Recommendation: We recommend that ATC 1) remit payment to the U.S. Government for interest lost as
a result of the excess cash or otherwise demonstrate why interest is not owed; and 2) complete
documented reconciliations and detailed analyses of cash position and actual anticipated disbursements
on a monthly basis and return unneeded cash to the U.S. Government promptly.




                                               (Continued)

                                                                                                       21.
Finding 2013-06: Reporting: OMB Circular A-133 Audit Reports

Significant Deficiency and Non-Compliance

Criteria: The cover pages and terms and conditions of the grant agreements executed by and between
ATC and the DoS specify that ATC shall comply with and have audits conducted in accordance with OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.

Pursuant to Section 505 of OMB Circular A-133, the auditors report must include a) an opinion as to
whether the financial statements are presented fairly in all material respects in conformity with generally
accepted accounting principles and an opinion as to whether the schedule of expenditures of federal
awards is presented fairly in all material respects in relation to the financial statements; b) a report on
internal control; c) a report on compliance; and d) a schedule of findings and questioned costs.

Per Section 230(b) of OMB Circular A-133, the costs of the audit may not be charged if the audit is not
conducted in accordance with OMB Circular A-133.

Condition: The financial audit reports issued for ATC's grants for the fiscal years ended 31 March 2010,
31 March 2011, and 31 March 2012, did not include the reports required pursuant to OMB Circular A-133.
Specifically, a Report on Internal Control, Report on Compliance (including an opinion on compliance),
and Schedule of Expenditures of Federal Awards were not included in the reporting package provided by
ATC. Based on a review of the expense details itemizing costs charged to the grants, ATC did not direct
charge the costs of the audits to the grants. However, the costs were charged through the indirect cost
pool.

Questioned costs: Indeterminable.

Effect: The DoS may have been unaware of risks of noncompliance and instances in which ATC failed to
comply with Federal rules and regulations and the terms and conditions of the grant agreements.

Cause: ATC indicated that the organization did not receive some of the terms and conditions during 2007
and 2008 and were therefore not aware of the audit requirement. They further stated that the cost of
auditing the projects were unbudgeted.

Recommendation: We recommend that ATC:

    1. Engage an auditor to complete audits of fiscal years 2008 and 2009 in accordance with OMB
       Circular A-133;
    2. Have the additional audit procedures required to comply with OMB Circular A-133 completed for
       fiscal years 2010, 2011, and 2012;
    3. Submit the final audit reports to the DoS for review; and
    4. Identify the cost of each audit that was allocated to the grants through the indirect cost pool and
       report the amount to the Grants Officer so that they may determine if the costs should be repaid
       or if having the audit reporting packages revised may meet the Department’s requirements.




                                               (Continued)

                                                                                                       22.
Finding 2013-07: Reporting

Significant Deficiency and Non-Compliance

Criteria: Pursuant to the grant agreements, progress reports – including technical progress reports - are
due to the DoS quarterly and must be submitted no later than 30 days following the end of each reporting
period. The grant agreements specify that final report for the grant ending in 08-002 was due by July 31,
2009, and the final report for grant 09-015 was due by June 30, 2010. In addition, the provisions of 22
CFR Part 145.51 state that “quarterly or semi-annual reports shall be due 30 days after the reporting
period.”

Condition: Documentation showing the dates that four reports were submitted to the DoS was
unavailable. Thus, we could not determine whether the required reports were submitted by the deadlines
prescribed by Federal regulations and the terms and conditions of the awards. The table below
summarizes the reports in question.

         Grant               Reporting Period              Report Type              Missing Item(s)
07-006                    October – December         Progress Report            Evidence of submission
                          2007                                                  date
08-002                    July – September 2008      Technical Progress         Evidence of submission
                                                     Report                     date
08-002                    Total Project              Final Progress Report      Evidence of submission
                                                                                date
09-015                    Total Project              Final Financial Report     Evidence of submission
                                                                                date


Questioned costs: None

Effect: The DoS may have been unable to effectively monitor project progress and understand the nature
of the work being performed without periodic progress reports.

Cause: It is unclear why supporting documentation showing the dates that the progress reports were
submitted to DoS is unavailable. Per ATC, the organization normally sends the financial and technical
narrative reports within 30 days after the quarter.

Recommendation: We recommend that ATC’s management document and implement a procedure to
monitor the submission of reports by the deadline established within the grant agreements. We further
recommend that ATC retain evidence of submission dates.




                                                                                                      23.
SECTION 2 – Summary Schedule of Prior Audit, Review, and Assessment Findings

The Afghan Technical Consultants (“ATC”) provided to Crowe copies of three prior audit reports for the
years ended March 31, 2010, March 31, 2011, and March 31, 2012. The audit firms conducted
procedures and reported on the financial statement for each year. For the years ended March 31, 2010,
and March 31, 2011, the financial statement was entitled a “Revenue and Expenditure Statement”. For
the year ended March 31, 2012, the financial statement was entitled a “Statement of Receipts and
Disbursements”. Each year’s financial statement indicated that the contents were limited to the grant
awarded to ATC for the referenced ATC fiscal year. In addition, the audit reports did not include a Report
on Internal Control or a Report on Compliance.

An evaluation of corrective action resulting from items questioned within the audit reports was included in
our audit procedures. ATC resolved each of the prior matters emphasized presented in the audit reports.
No findings were included in the reports provided to us.

Matters emphasized within each audit report follow:

Independent Auditor’s Report on the financial report for the year ended 31 March 2010, Project number
S-PMWRA-09-GR-015: The auditors reported no findings. However, an emphasis of matter paragraph
was included to draw attention to $90,000 in depreciation expense for non-expendable equipment that
was charged to the grant.

Status: Per communications with the funding agency and the auditee, the amount of $90,000 was
returned to the Treasury and re-obligated. This matter is resolved.


Independent Auditor’s Report on the financial report for the year ended 31 March 2011, Project number
S-PMWRA-10-002: The auditors reported no findings. However, a reference was included within the
“Basis of Accounting” paragraph appearing in the audit report that drew attention to $247,000 in
depreciation expense for non-expendable equipment that was charged to the grant.

Status: Per communications with the funding agency and the auditee, the amount of $247,000 was
returned to the Treasury and re-obligated. This matter is resolved.


Audited Financial Report of ATC US DOS project award No. S-PMWRA-11-GR-010 for the period April 1,
2011, to August 31, 2012: The auditors reported no findings. However, a reference was included within
the “Basis of Accounting” paragraph appearing in the audit report that drew attention to $292,000 in
depreciation expense for non-expendable equipment that was charged to the grant.

Status: Per communications with the funding agency and the auditee, the amount of $292,000 was
returned to the Treasury and re-obligated. This matter is resolved.




                                                                                                       24.
APPENDIX A – Schedule of Property and Equipment Stolen or Destroyed

The following pages present the listing of items that were stolen or destroyed as provided by the auditee.
Totals have been inserted by the auditor.




                                                                                                      25.
                                                   Goods Burned in Fire
                                                                             Unit     Total              Unit
                                                                             Price   Price               Price
S/NO            Item Name        Specification       Date      Qty   Unit     AFG     AFG      USD Rte   USD       Total USD
    1   Tent (4x4)                                  8/6/2011    3    PCS     15600      46800    48                     975.00
    2   Blanket Moonlihgt                           8/6/2011    32   PCS      1250      40000    48                     833.33
    3   Sleeping Bag                                8/6/2011    16   PCS      1350      21600    48                     450.00
    4   Plastic Mat                                 8/6/2011    10   PCS      650         6500   48                     135.42
    5   Carpet (Mokit)                              8/6/2011    8    Meter    380         3040   48                      63.33
    6   Carpet                                      8/6/2011    2    PCS      6500      13000    48                     270.83
    7   Water Cooler                                8/6/2011    4    PCS      300         1200   48                      25.00
    8   Water Continer                              8/6/2011    4    PCS      300         1200   48                      25.00
    9   Tea Pot                                     8/6/2011    3    PCS      450         1350   48                      28.13
   10   Table Cloth                                 8/6/2011    6    Meter     50          300   48                       6.25
   11   Tray Nikle                                  8/6/2011    2    PCS      150          300   48                       6.25
   12   Water Jug                                   8/6/2011    2    PCS      250          500   48                      10.42
   13   Three Shoe                                  8/6/2011    4    PCS       80          320   48                       6.67
   14   Uniform                                     8/6/2011    10   Pair     1250      12500    48                     260.42
   15   Bag Large                                   8/6/2011    14   PCS      180         2520   48                      52.50
   16   Jacket                                      8/6/2011    7    PCS      1344        9408   48                     196.00
   17   Shoes                                       8/6/2011    6    Pair     900         5400   48                     112.50
   18   Bed Foldable                                8/6/2011    14   PCS      1650      23100    48                     481.25
   19   Bowl                                        8/6/2011    4    PCS       50          200   48                       4.17
   20   Battrey Charger                             8/6/2011    10   PCS      5184      51840    48          108      1,080.00
   21   Rechargable Battery                         8/6/2011    40   Can      720       28800    48           15        600.00
   22   Portative Spade                             8/6/2011    7    PCS      280         1960   48                      40.83
   23   Shovel                                      8/6/2011    6    PCS      150          900   48                      18.75
   24   Escraper                                    8/6/2011    10   PCS     54.74       547.4   48                      11.40
   25   Tent (4x4)                                  8/6/2011    7    PCS     15600   109200      48      325.00       2,275.00
   26   Carpet                                      8/6/2011    3    PCS      6500   19500       48      135.42         406.25
   27   Plastic Mat                                 8/6/2011    3    PCS      650     1950       48       13.54          40.63
   28   Carpet (Mokit)                Irani         8/6/2011    2    PCS      380      760       48        7.92          15.83
   29   Blanket Moonlight              ‫دوال‬         8/6/2011    64   PCS      1250   80000       48       26.04       1,666.67
   30   Blanket Moonlight             ‫يک ال‬         8/6/2011    25   PCS                0        48                        -
   31   Sleeping Bag                                8/6/2011    32   PCS     1350    43200       48       28.13         900.00
   32   Bed Foldable                                8/6/2011    20   PCS     1650    33000       48       34.38         687.50
   33   Desk                                        8/6/2011    4    PCS     1650     6600       48       34.38         137.50
   34   Chair                                       8/6/2011    6    PCS     580      3480       48       12.08          72.50
   35   Dish Pot                                    8/6/2011    3    PCS     1200     3600       48       25.00          75.00
   36   Gas Cylander                                8/6/2011    1    PCS     800       800       48       16.67          16.67
   37   Water Continer                              8/6/2011    8    PCS     300      2400       48        6.25          50.00
   38   Tray                                        8/6/2011    9    PCS     120      1080       48        2.50          22.50
   39   Bowel                                       8/6/2011    9    PCS      50       450       48        1.04           9.38
   40   Plate                        Nikle          8/6/2011    6    PCS      40       240       48        0.83           5.00
   41   Stove Gas for Kitchen     ‫اجاق يا ديکدان‬    8/6/2011    1    PCS     1800     1800       48       37.50          37.50
   42   Generator                                   8/6/2011    1    PCS                0        48                        -
   43   Box Metal                    Large          8/6/2011    1    PCS     6500     6500       48      135.42         135.42
   44   Tea Pot                      Nilke          8/6/2011    5    PCS     400      2000       48        8.33          41.67
   45   Tarpalian                ‫ترپال پالستيکی‬     8/6/2011    6    Can     650      3900       48       13.54          81.25
   46   Tarpalian                  ‫ترپال خيمه‬       8/6/2011    6    PCS     650      3900       48       13.54          81.25
   47   Basin                    ‫تشت کاال شويی‬      8/6/2011    3    PCS     180       540       48        3.75          11.25
   48   Bucket                       Metal          8/6/2011    5    PCS     120       600       48        2.50          12.50
   49   Basin for Rice Washing   ‫تشت برنج شويی‬      8/6/2011    1    PCS     180       180       48        3.75           3.75
   50   Rice Strainer               ‫چلوصاف‬          8/6/2011    1    PCS     150       150       48        3.13           3.13
   51   Ladle                         ‫مالقه‬         8/6/2011    1    PCS      40        40       48        0.83           0.83
   52   Skimmer                       ‫کفگير‬         8/6/2011    1    PCS      40        40       48        0.83           0.83
   53   Tea Pot                                     8/6/2011    1    PCS     180       180       48        3.75           3.75
   54   Apron Cover                                 8/6/2011    10   PCS     160      1600       48        3.33          33.33
   55   Helmet Cover                                8/6/2011    12   PCS     180      2160       48        3.75          45.00
   56   Gloves                                      8/6/2011    24   Pair    130      3120       48        2.71          65.00
   57   Mine Kit                                    8/6/2011    10   PCS     300      3000       48        6.25          62.50
   58   Potaive Spade              ‫ترپال پروت‬       8/6/2011    10   PCS     280      2800       48        5.83          58.33
   59   Fragmin Bag                                 8/6/2011    10   PCS     245      2450       48        5.10          51.04
   60   Scissors                     Large          8/6/2011    4    PCS     300      1200       48        6.25          25.00
   61   Scissors                     Smal           8/6/2011    10   PCS     100      1000       48        2.08          20.83
   62   Saw                          Large          8/6/2011    4    PCS      80       320       48        1.67           6.67
   63   Rope                                        8/6/2011   110   Meter   100     11000       48        2.08         229.17
   64   Wire                                        8/6/2011   100   Meter    10      1000       48        0.21          20.83
   65   Stablizer                                   8/6/2011    1    PCS     1200     1200       48       25.00          25.00
      66 Pressure Cooker                      8/6/2011   2    PCS    900      1800    48      18.75           37.50
      67 Rechargable Battry         Size -D   8/6/2011   50   PCS    720     36000    48      15.00          750.00
      68 Battry Cahrger for MDL-1             8/6/2011   13   PCS    5184    67392    48     108.00        1,404.00
      69 Walki Talki GP340                    8/6/2011   4    PCS   166858   667432   48   3,476.21       13,904.83
      70 Battry Cahrger for GP340             8/6/2011   4    PCS    1920     7680    48      40.00          160.00
      71 Compass                              8/6/2011   1    PCS    2160     2160    48      45.00           45.00
      72 GPS                                  8/6/2011   1    PCS   13000    13000    48     270.83          270.83
      73 Binecoler                            8/6/2011   1    PCS    1200     1200    48      25.00           25.00
      74 Digital Camera                       8/6/2011   1    PCS   13000    13000    48     270.83          270.83
      75 Loud Speaker                         8/6/2011   1    PCS    1200     1200    48      25.00           25.00
      76 Metalcaboard                         8/6/2011   1    PCS    4800     4800    48     100.00          100.00
      77 Box Metal                   Smal     8/6/2011   1    PCS    1050     1050    48      21.88           21.88
      78 Team Leader Bag                      8/6/2011   1    PCS    550      550     48      11.46           11.46
      79 Meassuring Tape             50m      8/6/2011   1    PCS    150      150     48       3.13            3.13
      80 Calculator                           8/6/2011   1    PCS    150      150     48       3.13            3.13
      81 Punch                                8/6/2011   1    PCS    160      160     48       3.33            3.33
      82 Stebler                              8/6/2011   1    PCS     80       80     48       1.67            1.67
      83 Three Shoe                           8/6/2011   1    PCS     80       80     48       1.67            1.67
      84 Apron                      Used      8/6/2011   2    PCS   26352    52704    48     549.00        1,098.00
      85 Helmet                     Used      8/6/2011   2    PCS              0      48                        -
      86 Shavel                               8/6/2011   3    PCS    120      360     48      2.50             7.50
      87 Paint                                8/6/2011   30   Can     98      2940    48      2.04            61.25
      88 Fan                                  8/6/2011   2    PCS    1800     3600    48     37.50            75.00
      89 Tent for Bath                        8/6/2011   2    PCS    2500     5000    48     52.08           104.17
TOTAL UNITS:                                                                                                    891
TOTAL USD:                                                                                            $      31,515
              Stolen Property - Valued in United States Dollars

 S/NO:              Item Name          Specification       Date     Qty   Unit   Unit Price       Total USD
        1   Metal Detector Minelab    30150000N21614    26/5/2013    1    PCS      3111                    $3,111
        2   Metal Detector Minelab    30150000N21584    26/5/2013    1    PCS      3111                    $3,111
        3   Metal Detector Minelab    30150000N21616    26/5/2013    1    PCS      3111                    $3,111
        4   Metal Detector Minelab    30150000N21633    26/5/2013    1    PCS      3111                    $3,111
        5   Metal Detector Minelab    30150000N21588    26/5/2013    1    PCS      3111                    $3,111
        6   Metal Detector Minelab    30150000N21643    26/5/2013    1    PCS      3111                    $3,111
        7   Metal Detector Minelab    30150000N21587    26/5/2013    1    PCS      3111                    $3,111
        8   Walkie Talkie GP 340      672‐TBY4795       26/5/2013    1    PCS     347.04                   347.04
        9   Walkie Talkie GP 340      672‐THLC905       26/5/2013    1    PCS     347.04                   347.04
       10   Walkie Talkie GP 340      672‐TBYX571       26/5/2013    1    PCS     347.04                   347.04
       11   Digital Camera            7599690           26/5/2013    1    PCS     286.98                   286.98
       12   Rechargeable Battery      Size‐D            26/5/2013   84    PCS      15.00                  1260.00
       13   Medical Kit                                 26/5/2013    1    PCS      35.46                    35.46
       14   Measuring Tape            50 Metra          26/5/2013    1    PCS      5.055                   $5.055
       15   Water Container Plastic                     26/5/2013    2    PCS       4.5                    $9.000
       16   Walkie Talkie GP‐340      672TEJA 281        2/9/2012    1    PCS     347.04                  $347.04
       17   Digital Camera            8774628            2/9/2012    1    PCS     260.00                  $260.00
       18   Walkie Talkie GP‐340      672TEJA 281      22/08/2010    1    PCS     347.04                  $347.04
       19   Walkie Talkie GP‐340      672TEG 8886      22/08/2010    1    PCS     347.04                  $347.04




          Toyota Pick Up Hilux 
          Double Cabin Color Black  Chassis # MROFR 
       20 Model 2012                22J990609277     24/05/2013      1    PCS     $25,850                 $25,850

      21 Laptop Computer              S.No. J8JKZkL    28/11/2010    1    PCS      $1,180                  $1,180
TOTAL UNITS:                                                                                                  105
TOTAL USD:                                                                                    $        52,745.74
             Stolen Goods - Valued in Afghanis and Converted to U.S. Dollars
                                                                                    Unit     Total
                                                                                    Price    Price
S/NO:               Item Name             Specification     Date      Qty   Unit     AFG      AFG     USD Rate   Total USD
     1   Digital Camera                                   30/6/2011    1    PCS     13000    13000       48                270.83
     2   Chair folding                                    30/6/2011    1    PCS      600       600       48                 12.50
     3   Strecher                                         30/6/2011    1    PCS      4000     4000       48                 83.33
     4   Medical Kit                    Large             30/6/2011    1    PCS      1050     1050       48                 21.88
     5   Medical Kit                    Small             30/6/2011    1    PCS      1800     1800       48                 37.50
     6   Demining Box                                     30/6/2011    1    PCS      6500     6500       48                135.42
     7   Blanket Moonlight                                30/6/2011    1    PCS      1250     1250       48                 26.04
     8   Loud Speaker                                     30/6/2011    1    PCS      1050     1050       48                 21.88
     9   Pilow                                            30/6/2011    1    PCS      150       150       48                  3.13
    10   Back Bag                                         30/6/2011    1    PCS      650       650       48                 13.54
    11   Metal detector (Ceia)                            30/6/2011    11   PCS     74880    823680      48            17,160.00
    12   Helmet                                           30/6/2011    14   PCS                 0        48                  -
    13   Loud Speaker                                     30/6/2011    1    PCS      1050     1050       48                21.88
    14   Digital Camera                                   30/6/2011    1    PCS     13000    13000       48               270.83
    15   Range Finder                                     30/6/2011    1    PCS                 0        48                  -
    16   Vest Rovlin                                      30/6/2011    10   PCS     25920    259200      48             5,400.00
    17   Vest Rovlin                                      30/6/2011    4    PCS     26352    105408      48             2,196.00
    18   Helmet Cover                                     30/6/2011    14   PCS      180      2520       48                52.50
    19   Apron Cover                                      30/6/2011    14   PCS      160      2240       48                46.67
    20   Boynate                                          30/6/2011    10   PCS      140      1400       48                29.17
    21   Scraper                                          30/6/2011    10   Meter   54.74     547.4      48                11.40
    22   Ring Scraper                                     30/6/2011    10   Meter               0        48                  -
    23   Prodding Tarpalian                               30/6/2011    10   PCS     39.55     395.5      48                 8.24
    24   Mine Kit                                         30/6/2011    10   PCS      300      3000       48                62.50
    25   Demining Rod                                     30/6/2011    20   PCS       35       700       48                14.58
    26   Rope                                             30/6/2011   250   PCS       13      3250       48                67.71
    27   Poling Hook                                      30/6/2011    1    PCS                 0        48                  -
    28   Mine Marker                                      30/6/2011    10   PCS       30       300       48                 6.25
    29   Fragment Bag                                     30/6/2011    10   PCS      245      2450       48                51.04
    30   Saw folding                                      30/6/2011    10   PCS                 0        48                  -
    31   Portative Spade                                  30/6/2011    10   PCS      280      2800       48                58.33
    32   Pick 120cm                                       30/6/2011    10   PCS      160      1600       48                33.33
    33   Scissor                                          30/6/2011    10   PCS      300      3000       48                62.50
    34   Pliars                                           30/6/2011    2    PCS      120       240       48                 5.00
    35   Knife                                            30/6/2011    1    PCS       60        60       48                 1.25
    36   Metal Bucket                                     30/6/2011    1    PCS      120       120       48                 2.50
    37   Cutter Piller                                    30/6/2011    10   PCS      100      1000       48                20.83
    38   Pickax                                           30/6/2011    10   PCS      100      1000       48                20.83
    39   Measuring Tape                                   30/6/2011    2    PCS      150       300       48                 6.25
    40   Gloves                                           30/6/2011    10   Pair     130      1300       48                27.08
    41   Battery Rechageable                              30/6/2011    84   PCS      720     60480       48             1,260.00
    42   Magnatic for Demining                            30/6/2011    10   PCS     27.78     277.8      48                 5.79
    43   Shovel                                           30/6/2011    2    PCS      150       300       48                 6.25
    44   Team Leader Bag                                  30/6/2011    3    PCS      550      1650       48                34.38
    45   Magnatic Portative Spade                         30/6/2011    11   PCS                 0        48                  -
    46   Water Cooler                                     30/6/2011    1    PCS      300       300       48                 6.25
    47   GPS                                              30/6/2011    1    PCS     10320    10320       48               215.00
    48   Campass                                          30/6/2011    1    PCS     2557.4   2557.4      48                53.28
    49   Metal detector (Ceia)                            30/6/2011    11   PCS     74880    823680      48               17,160
    50   Apron                                            30/6/2011    14   PCS     26352    368928      48                7,686
    51   Full face Visor                                  30/6/2011    14   PCS      2736    38304       48                  798
    52   Scraper                                          30/6/2011    20   PCS     54.74    1094.8      48                    23
    53   Dust Pot                                         30/6/2011    10   PCS     44.19     441.9      48                     9
    54   Rope                                             30/6/2011   200   PCS       13      2600       48                    54
    55   Poling Hook                                      30/6/2011    1    PCS      250       250       48                     5
    56   Ring Scraper                                     30/6/2011    10   PCS                 0        48                  -
    57   Magnatic for Demining                            30/6/2011    10   PCS     27.78     277.8      48                     6
    58   Fragment Bag                                     30/6/2011    10   PCS      245      2450       48                    51
    59   Mine Kit                                         30/6/2011    10   PCS      300      3000       48                    63
    60   Prodding Tarpalian                               30/6/2011    12   PCS     39.55     474.6      48                    10
    61   Stick 120cm                                      30/6/2011    10   PCS      160      1600       48                    33
    62   Mine Marker                                      30/6/2011    20   PCS       30       600       48                    13
    63   Apron Cover                                      30/6/2011    14   PCS      160      2240       48                    47
    64   Helmet Cover                                     30/6/2011    14   PCS      180      2520       48                    53
    65   Portative Spade                                  30/6/2011    10   PCS      280      2800       48                    58
    66   Pickax                                           30/6/2011    10   PCS      160      1600       48                    33
    67   Battery Rechargeable Size -D                     30/6/2011    80   PCS      720     57600       48                1,200
    68   Demining Rod                                     30/6/2011    20   PCS       35       700       48                    15
    69   Gloves                                           30/6/2011    20   Can      130      2600       48                    54
    70   Team Leader Bag                                  30/6/2011    3    PCS      550      1650       48                   34
      71 Meassuring Tape         30/6/2011   2    PCS    150      300     48            6
      72 GPS                     30/6/2011   1    PCS   10320    10320    48          215
      73 Campass                 30/6/2011   1    PCS   2557.4   2557.4   48           53
      74 Magnatic for Demining   30/6/2011   10   PCS   27.78    277.8    48            6
      75 Digital Camera          30/6/2011   1    PCS   13000    13000    48          271
TOTAL UNITS:                                                                        1,148
TOTAL USD:                                                                     $   55,799
APPENDIX B – Imputed Interest Calculation Pertaining Resulting from Excess Cash Balances




                                                                                           31.
                                            Grant S-PMWRA-07-GR-006

                       Cumulative Cash      Cumulative Costs                        Days                     Interest
 Month    Receipts                                                Excess Cash                   CMIA Rate
                          Receipts             Incurred                          Outstanding                 Payable
Apr-07                                               $24,210.14          $0.00              0                      $0.00
May-07   $700,000.00          $700,000.00            $49,472.05          $0.00              0                      $0.00
Jun-07                        $700,000.00           $121,995.19    $578,004.81             30   0.0001033     $1,791.24
Jul-07                        $700,000.00           $154,922.66    $545,077.34             30   0.0001033     $1,689.19
Aug-07   $200,000.00          $900,000.00           $169,388.61    $530,611.39             30   0.0001033     $1,644.36
Sep-07                        $900,000.00           $765,175.16    $134,824.84             30   0.0001033       $417.82
Oct-07                        $900,000.00           $776,977.30    $123,022.70             30   0.0001033       $381.25
Nov-07                        $900,000.00           $830,617.87     $69,382.13             30   0.0001033       $215.02
Dec-07                       $900,000.00            $933,060.86    -$33,060.86              0                      $0.00
Jan-08   $200,000.00        $1,100,000.00         $1,084,913.13   -$184,913.13              0                      $0.00
Feb-08   $100,000.00        $1,200,000.00         $1,151,708.01    -$51,708.01              0                      $0.00
Mar-08                      $1,200,000.00         $1,200,000.00          $0.00              0                      $0.00
                                                                                                Total:         $6,138.88
                                                                                                Less $250:    $5,888.88




                                                                                                                     32.
                                             Grant S-PMWRA-08-GR-002

                         Cumulative Cash     Cumulative Costs        Excess         Days                          Interest
 Month     Receipts                                                                                 CMIA Rate
                            Receipts            Incurred              Cash       Outstanding                      Payable
Apr-08   $1,000,000.00       $1,000,000.00            $30,844.65         $0.00                  0                      $0.00
May-08           $0.00       $1,000,000.00           $177,569.16         $0.00                  0                      $0.00
Jun-08           $0.00       $1,000,000.00           $479,289.50   $520,710.50                 30     0.0000269     $420.21
Jul-08           $0.00       $1,000,000.00           $588,496.89   $411,503.11                 30     0.0000269     $332.08
Aug-08           $0.00       $1,000,000.00           $672,251.85   $327,748.15                 30     0.0000269     $264.49
Sep-08           $0.00       $1,000,000.00           $955,615.30    $44,384.70                 30     0.0000269       $35.82
Oct-08     $525,000.00       $1,525,000.00         $1,026,103.08   -$26,103.08                  0                      $0.00
Nov-08           $0.00       $1,525,000.00         $1,135,557.30   $389,442.70                 30     0.0000269     $314.28
Dec-08           $0.00       $1,525,000.00         $1,300,797.65   $224,202.35                 30     0.0000269     $180.93
Jan-09           $0.00       $1,525,000.00         $1,381,305.40   $143,694.60                 30     0.0000269     $115.96
Feb-09     $500,000.00       $2,025,000.00         $1,532,984.98    -$7,984.98                  0                      $0.00
Mar-09           $0.00       $2,025,000.00         $2,020,030.57     $4,969.43                 30     0.0000269        $4.01
                                                                                                    Total:        $1,667.79
                                                                                                    Less $250:    $1,417.79




                                                                                                                         33.
                                             Grant S-PMWRA-09-GR-015

                         Cumulative Cash     Cumulative Costs                        Days                      Interest
 Month     Receipts                                                Excess Cash                   CMIA Rate
                            Receipts            Incurred                          Outstanding                  Payable
Apr-09     $500,000.00         $500,000.00           $192,553.56          $0.00              0                      $0.00
May-09           $0.00         $500,000.00           $399,336.58          $0.00              0                      $0.00
Jun-09           $0.00         $500,000.00           $644,870.85   -$144,870.85              0                      $0.00
Jul-09           $0.00         $500,000.00           $793,954.19   -$293,954.19              0                      $0.00
Aug-09   $1,000,000.00       $1,500,000.00           $948,142.59   -$448,142.59              0                      $0.00
Sep-09           $0.00       $1,500,000.00         $1,191,051.88    $308,948.12             30     0.0000035       $32.44
Oct-09           $0.00       $1,500,000.00         $1,302,264.24    $197,735.76             30     0.0000035       $20.76
Nov-09           $0.00       $1,500,000.00         $1,452,885.71     $47,114.29             30     0.0000035        $4.95
Dec-09   $1,000,000.00       $2,500,000.00         $1,864,194.63   -$364,194.63              0                      $0.00
Jan-10           $0.00       $2,500,000.00         $2,285,668.05    $214,331.95              0                      $0.00
Feb-10     $350,000.00       $2,850,000.00         $2,537,942.43    -$37,942.43              0                      $0.00
Mar-10           $0.00       $2,850,000.00         $2,860,049.95    -$10,049.95              0                      $0.00
                                                                                                 Total:            $58.15
                                                                                                 Less $250:      -$191.85




                                                                                                                      34.
                                             Grant S-PMWRA-10-GR-002

                         Cumulative Cash     Cumulative Costs                        Days                      Interest
 Month    Receipts                                                 Excess Cash                   CMIA Rate
                            Receipts            Incurred                          Outstanding                  Payable
Apr-10           $0.00               $0.00           $183,485.30          $0.00              0                      $0.00
May-10           $0.00               $0.00           $360,700.34          $0.00              0                      $0.00
Jun-10   $1,000,000.00      $1,000,000.00            $711,615.43   -$711,615.43              0                      $0.00
Jul-10           $0.00      $1,000,000.00            $905,190.91     $94,809.09             30     0.0000039       $11.09
Aug-10           $0.00      $1,000,000.00          $1,373,231.54   -$373,231.54              0                      $0.00
Sep-10           $0.00      $1,000,000.00          $1,609,047.07   -$609,047.07              0                      $0.00
Oct-10   $1,000,000.00      $2,000,000.00          $1,883,873.59   -$883,873.59              0                      $0.00
Nov-10           $0.00      $2,000,000.00          $2,112,433.05   -$112,433.05              0                      $0.00
Dec-10   $1,000,000.00      $3,000,000.00          $2,685,883.91   -$685,883.91              0                      $0.00
Jan-11   $1,000,000.00      $4,000,000.00          $2,890,272.07    $109,727.93             30     0.0000039       $12.84
Feb-11           $0.00      $4,000,000.00          $3,239,860.38    $760,139.62             30     0.0000039       $88.94
Mar-11           $0.00      $4,000,000.00          $3,935,505.28     $64,494.72             30     0.0000039        $7.55
                                                                                                 Total:           $120.41
                                                                                                 Less $250:      -$129.59




                                                                                                                      35.
                                                       Grant S-PMWRA-11-GR-010

                             Cumulative Cash           Cumulative Costs                              Days                      Interest
 Month      Receipts                                                            Excess Cash                      CMIA Rate
                                Receipts                  Incurred                                Outstanding                  Payable
Apr-11            $0.00                   $0.00                $162,743.61              $0.00                0                      $0.00
May-11    $1,000,000.00          $1,000,000.00                 $415,203.88              $0.00                0                      $0.00
Jun-11            $0.00          $1,000,000.00                 $643,011.34        $356,988.66               30     0.0000011       $11.78
Jul-11            $0.00          $1,000,000.00                 $828,582.86        $171,417.14               30     0.0000011        $5.66
Aug-11     $333,333.00           $1,333,333.00               $1,032,189.86        -$32,189.86                0                      $0.00
Sep-11     $666,667.00           $2,000,000.00               $1,462,802.49       -$129,469.49                0                      $0.00
Oct-11            $0.00          $2,000,000.00               $1,898,801.05        $101,198.95               30     0.0000011        $3.34
Nov-11     $333,333.00           $2,333,333.00               $2,056,429.21        -$56,429.21                0                      $0.00
Dec-11            $0.00          $2,333,333.00               $2,411,076.36        -$77,743.36                0                      $0.00
Jan-12     $666,667.00           $3,000,000.00               $2,792,535.49       -$459,202.49                0                      $0.00
Feb-12      $666,666.00          $3,666,666.00               $3,084,087.81        -$84,087.81                0                      $0.00
Mar-12     $333,334.00           $4,000,000.00               $3,844,184.18       -$177,518.18                0                      $0.00
Apr-12            $0.00          $4,000,000.00               $3,866,326.69        $133,673.31               30     0.0000011        $4.41
May-12            $0.00          $4,000,000.00               $3,886,609.96        $113,390.04               30     0.0000011        $3.74
Jun-12            $0.00          $4,000,000.00               $3,952,483.63         $47,516.37               30     0.0000011        $1.57
Jul-12            $0.00          $4,000,000.00               $3,983,511.61         $16,488.39               30     0.0000011        $0.54
Aug-12            $0.00          $4,000,000.00               $4,004,241.56         -$4,241.56                0                      $0.00
                                                                                                                                   $31.04
                                                                                                                 Less $250       -$218.96

                                                                                                                 Total
                                                                                                                 Payable:       $7,307

Note 1:   The total payable amount excludes years with a net negative after addressing $250 retention.

          Excess cash was defined, for purposes of the audit, as the cumulative amount of funds drawn down that exceeded the sum of the
Note 2:
          project's cumulative expenditures as of month-end and the expenditures for the subsequent month.

          Due to ATC's conducting conversions of Afghanis to U.S. dollars on a quarterly basis, presentation of amounts on a monthly basis
Note 3:
          when summed will not agree to cumulative amounts appearing on the Fund Accountability Statement.




                                                                                                                                      36.
APPENDIX C - Views of Responsible Officials




                                              37.
   ATC Management Comments
                         On

         The Audit Report on the ATC

           Fund Accountability Statement
Demining Projects for Various Regions of Afghanistan
For the Period April 1, 2007, through August 31, 2012

        (Schedule of Findings and Question Cost)




                                                   Page 1 of 8
Audit Observation:

In Page 2, Paragraph 3.1 of the summary/background it is written that “ATC has cleared over 2 million
square meters of impacted minefields using DoS-Funded teams”.

ATC Comment on the above Observation: Here, we want to highlight that ATC US DoS-funded
teams have cleared, prepared and processed over 15,087,461 square meters of impacted minefields using
DoS-Funded teams during the projects under review. The exact figures can be seen in the below Grant-
wise activities table.


                                                                                          TOTAL        AREA          AREA
                     START      END                                          FRAGMENT
AWARD NO                                    AT   AP      UXO       SAA                    AREA         PREPARED      PROCESSED
                     DATE       DATE                                         FOUND
                                                                                          CLEARED      Sq M          Cubic M


S-PMWRA-07-GR-006    4/1/2007   3/31/2008   -    51      98              -     130,409    233,259        36,537                  4,525


S-PMWRA-08-GR-002    4/1/2008   3/31/2009   8    220     2,853           -     412,331    818,342       154,594                  6,868


S-PMWRA-09-GR-015    4/1/2009   3/31/2010   -    1,123   66,430          -    1,357,568   3,670,879     202,654                  7,354


S-PMWRA-10-GR-002    4/1/2010   3/31/2011   1    952     9,818     7,000      2,985,789   4,454,309     389,335                  4,875


S-PMWRA-11-GR-010    4/1/2011   8/31/2012   45   607     26,258    500        2,529,501   4,999,560      99,010                  5,360


TOTAL                                       54   2,953   105,457   7,500      7,415,598   14,176,349    882,130                 28,982




According to the above, the clearance rate is less than US$ 1 per square meter; demonstrating that
exceeding the targets set by the mine action program in Afghanistan, the projects have been
implemented efficiently and cost-effectively.

Audit Observation: In Paragraph 3.4 Employing of more than 30 individual has been mentioned.

ATC Comment to the observation: The correct figure is not 30 individuals, it is an average of 250
staff employed during the life of different projects.


Finding 2013-01: Procurement: Competitive Procedures, Cost Price Analyses, and Internal Controls

ATC Response:

The fuel purchase was not made in bulk. The fuel was purchased for vehicles and generators according
to the organization’s procurement policy and procedure. On basis of ATC’s policy, goods/material and
fuel which cost US $ 500 or more, need quotes, cost and price analysis and purchase order. While that
goods/material which cost less than US $ 500, don’t need the mentioned documentation. In this specific
case, the maximum cost of a single-day bills didn’t exceed US $ 315 which didn’t require quotes, price


                                                                                                                  Page 2 of 8
analysis and purchase order. The procurement committee has signed in the back of every bill. The
maximum cost of the bill can be seen in the attached total purchase form.


                             Description           of   Period Covered      No of     No       of
       Voucher                                                                                      Amount
Item             Date        Change / Particular        From – To           Bill(s)   Vehicle/
       Number                                                                                       (AFN)
                             Vendor                                                   Generator
1      JV-2      30-Apr-11   Diesel expenses of
                             vehicles for Site office   04/04/11-28/04/11   15        5             69,135
                             Gardiz
2      JV-239    31-Jan-12   Fuel expenses for
                             generators of MDD-         04/01/12-30/01/12   4         1             14,580
                             Site
3      BPV-127   17-Mar-09   Shirkat e tijarti Nide
                             Afghanistan      Pump      03/03/2009          1         1             7,600
                             Station
4      BPV-89    31-Dec-08   Shirkat e tijarti Nide
                             Afghanistan      Pump      15/12/08-31/12/08   4         2             15,398
                             Station
5      BPV-182   30-Dec-10   Shirkat e tijarti Nide
                             Afghanistan      Pump      01/12/10-26/12/10   6         2             41,300
                             Station
6      BPV-115   9-Feb-09    Shirkat e tijarti Nide
                             Afghanistan      Pump      01/02/09-04/02/09   5         3             17,899
                             Station
7      JV-111    31-Aug-09   Fuel                 for
                             Heating/Generator –        01/08/09-22/08/09   2         1             8,268
                             For DT-43 Project
8      JV-70     30-Jun-09   Fuel                 for
                             Heating/Generator for      11/06/09-21/06/09   2         1             8,640
                             DT-43 project 50
9      BPV-244   31-Mar-10   Fuel expenses for land
                             cruiser and coaster for    01/03/10-22/3/10    7         2             25,565
                             DT-44
10     BPV-246   31-Mar-10   Fuel expenses for
                             kamaz vehicle for          01/03/10-16-03-10             2             20,560
                             MDU-10 514 liter @                             3
                             40
11     BPV-246   31-Mar-10   Fuel expenses for
                             kamaz vehicle for          02/03/10-25/03/10   19        2             38,480
                             MDD
12     BPV 246   31-Mar-10   Fuel expenses for
                             kamaz vehicle for DT-      01/03/10-27/03/10   11        3             49,280
                             44
Sub-Total:                                                                            316,705
Conversion to USD @ 48 Afs per $1:                                                    $6,598
Total:                                                                                $6,598


Notes:
   1. Based on ATC procurement policies, for each and every purchasing for $500 or above, cost
       analysis is done properly. But, for any single procurement less than $500, the purchase



                                                                                                      Page 3 of 8
      committee takes all necessary steps to get the best quality and price and sign in the back of
      each bill.
   2. The maximum cost of each bill can be seen in Annex A 2013 - 01.

Finding 2013-02: Allowable Costs: International Travel Approvals

ATC Response:

In the guidelines ATC received from the US Department of State in late 2011, it was mentioned about
using US-Flag carriers’ airplanes which was not applicable in these cases.

According to the ATC internal SOP the Director or the Deputy Director of NGO sign both domestic and
overseas travel authorization forms of ATC Staff in the past more than 2 decades which can be
presented in these four specific cases as well. Here, it is to be highlighted that the international travels
have taken place to purchase project goods and items with acceptable quality and reasonable prices
which were not available in the local market. These travels contributed toward the projects goals and
objectives significantly and saved a noticeable amount of money.

Finding 2013-03: Equipment and Property Management: Stolen and Destroyed Property

ATC Response:

ATC is not agree with the word of “theft” because all these accidents happened by unknown armed
people, ATC has implemented and did its best to set better control to ensure adequate safeguard to
prevent loss, damage and theft of the equipment, however due to existence of illegal armed people in the
area, a series of unknown armed attacks happened in ATC overall projects in last 24 years which
resulted in loss, damages and robbery of equipment. It is to be mentioned that all incidents took place
when armed people attacked ATC staff on the way towards base camps from the field or vice versa and
in the field, hijacked their vehicles, tortured the field staff and forcefully seized the equipment. None of
them happened in the office. Such incidents happen in Afghanistan accidently. ATC cannot hire extra
guards in such areas, instead considering advice MACCA Regional Office. ATC employed some
influential locals as guard, unfortunately that also could not help.

On the other hand, MACCA proposal review team does not allow us to hire extra staff and guards for
teams/base camps as MACCA policy for all projects; It is important that each ATC proposal shall be
attested by them before submission to the State Department.

Anyway, ATC is pleased that no human life was lost in the DoS-funded projects due to security
incidents. Unfortunately, similar projects of ATC suffered more as 6 people were shot dead in Balkh
province in March 2008 and one person was killed in Paktya by the insurgents in 1990. While the
effective management of the organization resulted in immediate release of 13 staff, who had been
kidnapped in Paktya province in September 2007.

It is worth mentioning that ATC reported these incidents to the police and Department of State soon
after the incidents.



                                                                                                    Page 4 of 8
In the case of fire at the Paktya base camp, all safety measure and precautions were taken into account.
But an unexpected wind and foul weather dispersed a small fire and caused the damages to the demining
equipment while demining teams were on the demining field. ATC informed the fire fighter right away
which with their cooperation the fire came under the control. ATC investigated the incidents properly,
took corrective action and even reprimanded the short comers. In addition, at the earliest possible time
we have reported the incidents to the State Department through proper reporting channels. Here, the
management of ATC does not have any shortcoming to show weak control. The copies of the reports are
attached as annex C.

Finding 2013-04: Allowable Costs: Employee Time Records

ATC Response:

According to the administration rules and policies, all professional and non-professional employees like
guards, drivers, medics etc maintain proper attendance book. While the project personnel sign the
attendance books regularly and on a daily basis. But, the attendance books are not attached with the
Salary sheets and vouchers and are kept in the site as record of attendance of teams and the site office.
On basis of the attendance books attendance reports are prepared by the admin staff which shows
present, absent, seconded, sickness, annual leave, leave without pay and team leave status. This
attendance report is prepared by the related supervisor and checked by the site officer and signed and
submitted to the Admin manager who checks and verifies their accuracy and then it is approved by the
Director or Deputy Director. Then the finance department prepares the payroll or salary sheet of the
personnel on basis of this approved and verified attendance report.

It is worth mentioning that the professional and non-professional personnel are generally selected from
different provinces of Afghanistan and they are stationed 24 hours in the base camp. They spend 50
consecutive days in the base camp which is always located nearby to their work sites. After a 50-day
demining mission, the teams have 10 days leave. Considering the security situation and the Afghan
Mine Action Standards (AMAS) and ATC Standard Operating Procedures (SOP), the base camp is
selected in a suitable place near to the work site. In addition, demining activities vary from other daily
routine work. It is very sensitive and high risk is associated. ATC field staff sign their daily attendance
book before departing to work early in the morning and start working at 07:00 a.m and continue up to 1
p.m. At the end of daily demining work each person signs the attendance book again. Moreover, they
have to stay in the base camp during rest of the day and night and take preparation for tomorrow’s work.
Each person must recharge his Mine Detector and hand held radio rechargeable batteries every afternoon
which takes about 5 hours. If the batteries are not charged well, the mine detector will lose its sensitivity
and could have catastrophic consequences. Also, non-professional staffs do their specific work.
Maintaining time sheets in the provinces of this country is not practical where computerized system is
not available in the villages and the fields. But, ATC believes that in the current situation it has adopted
the most convenient method for its internal control.

Finally, if we ask reimbursement of the salaries from poor field staff of the projects who have worked
very hard and suffered for their country, it would affect badly the image of the United States and ATC
among the society. Obviously, it is in contrast with the project objectives and no one wants it to happen.




                                                                                                     Page 5 of 8
Pictures of the personnel attendance books, their base camp and mission leave or team leave plan are
attached for your information as annex D.

Finding 2013-05: Cash Management: Requirements for Payment on the Advance Basis

ATC Response:

ATC US DoS Funded Project has received an amount of US $ 1,356 interest on project bank account
and it was spent in the project that has been mentioned in the Note No. 9. We have not received any
direction from the donor to do differently. However, the remaining sum of US $ 1,116 interests earned
from 2010 to 2012 on the project bank accounts are reserved and will be paid off to the Government
bank account whenever they ask. So far we didn’t have the Government bank account details to pay the
interest therefore it was reserved.

Finding 2013-06: Cash Management: Drawdown Exceeded Immediate Cash Needs.

ATC Response:

ATC US DoS-Funded Project received funds on basis of Section D of Standard Form 424 A, which is
part of the proposal budget, till March 2012 that was set with the agreement of ATC and DOS division
of full budget in four quarters to be able to spend the money by end of the project. From April 2012
onwards we receive fund on monthly basis.

Finding 2013-07: Reporting: OMB Circular A-133 Audit Reports

ATC Response:

If the donor is interested in auditing the mentioned projects and provides fund for this purpose, ATC do
not have any objection in this regard.

Finding 2013-08: Reporting

ATC Response:

ATC US DoS Funded Project has been submitting the project financial and technical narrative reports
with considering the contracts and statement of works through Payment Management System (PMS),
and to the Program Manager and Assistant Program Manager addresses as well as through Grant
Solution. So far there is not any barrier in submitting reports between us and donor. The continuation of
funds from the State Department for the last consecutive 8 years is a very good proof for this.

The schedule of reports submitted is as following:

                                                                         Date of     To whom report
    Grant          Reporting Period              Report Type
                                                                       Submission     was submited
                                                                                    Denis Hadrick
  07-006      October – December 2007      Progress Report             10/02/2008
                                                                                    Ms. Tonja Thomas
  08-002      July – September 2008        Technical Progress Report   18/10/2008
                                                                                    Banner Selecia
  09-015      January – March 2010         Technical Progress Report   30/04/2010   BannerSL@state.gov




                                                                                                         Page 6 of 8
                                                                                         Banner Selecia
  10-002       January – March 2011            Technical Progress Report    01/05/2011   BannerSL@state.gov
                                                                                         Steven.Kerwin@bluebottle.com
  11-010       July-September 2011             Technical Progress Report    27/10/2011
                                                                                         Ms. Tonja Thomas, its copy will
  08-002       Total Project                   Final Progress Report        13/05/2009   be send to Crowe Horwath
                                                                                         attached
                                                                                         Banner Selecia
  09-015       Total Project                   Final Financial Report       30/04/2010   BannerSL@state.gov



It is worth mentioning that creating Final Financial Report in the Payment Management System is
impossible. Therefore the last quarter financial report of the grant can be accepted as Final Financial
Report. The copies of the evidences are attached as Annex H.

ATC Management Team’s Final Opinion

As the first humanitarian demining NGO in the world ATC was established in early 1989 by the request
and financial support of the United Nations with the annual budget starting from US$ 5 M to 12 M
through the UN or directly.

ATC has received valuable assistance from the Department of State of the USA since 2005 for running
demining projects in different parts of the country.

ATC management tries their best to implement the project with due care and utmost attention. The
WRA Grant Officer convened a workshop and delivered a Power point presentation in late 2011 for the
first time for all recipients NGOs and continued with providing the guidelines in writing and through e-
mails. ATC managed to implement them in the project 2012-2013.

ATC has been trying to spend donor’s money in the best possible efficient and effective way as it has
achieved more than the set targets for the overall implemented projects including the DoS-funded ones.

During the course of operations for the subject projects ATC has spent US$ 13,422,356 and has cleared,
prepared and processed almost 15,087,461 square meters of mine/ERW contaminated area which reflects
less than one US dollar per each square meter. The projects resulted in discovering and destroying
115,964 antitank, antipersonnel mines and explosive remnants of war from the target communities. This
humanitarian project saved 1000s of lives of the innocent children, women and men and, as a result,
improved the image of the United States in different category communities across the country.

ATC has implemented the projects with an average staff of 250. These staff besides performing their
jobs were able to feed their families and educate their children and also many other children of the
project stakeholders in the society with the money they received as remunerations.

Therefore, we do not see any big concern in ATC’s performance in the DoS – Funded Projects under
review as ATC staff have done their jobs in the light of current SOPs in the best possible way and based
on their knowledge.

Finally, we believe that all criteria for a successful project is visible here:

    •   Achievement the goals
    •   Good productivity rate


                                                                                                               Page 7 of 8
   •   Cost effectiveness (better than cost-fix projects of demining commercial companies)

We would like to express our gratitude to the audit companies both in Kabul and Washington and the
ATC staff who worked very hard during fasting month of Ramzan to make this auditing process
possible and successful. Especially, we are thanking the SIGAR and the State Department who
recognized the tense situation in which ATC operates and delivers its life-saving services.

With Best Regards,




                                                                                             Page 8 of 8
APPENDIX D – Auditor’s Rebuttal




                                  38.
Auditor’s Rebuttal

Crowe Horwath LLP, in consideration of the views presented by the management of the Afghan Technical
Consultants (“ATC” or the “auditee”), presents the following rebuttal to certain matters presented by the
auditee. The responses below are intended to clarify factual errors and provide context, where
appropriate, to assist users of the report in their evaluation of the audit report. In those instances where
management’s response did not provide new information and support to modify the facts and
circumstances that resulted in the initial finding, we have not provided a response. The absence of a
rebuttal indicates that Crowe does not deem it necessary to correct or clarify any response of the auditee.

Please note that the finding numbers referenced below reflect the findings that appeared in the draft
report and correspond to management’s responses. The finding numbers below will not correspond to
the final audit report due to the referenced actions.

Finding 2013-08

We reviewed the technical progress report provided by ATC and have removed the component of the
finding pertaining to the report not having been developed. We also reviewed the documentation
provided by ATC showing the dates that certain reports were submitted to the Department of State (DoS)
staff and/or monitors via electronic mail. Upon review, we have removed the components of the finding
pertaining to the fourth quarter of 2010 quarterly financial and narrative report; the fourth quarter of 2011
financial and narrative report; and the second quarter of 2011 financial and technical narrative report (this
finding appears as Finding 2013-07 in the final version of the report).

ATC also provided copies of letters drafted to the State Department that were intended to accompany
reports submitted to DoS. Using the letters, we could not determine the actual submission dates. Thus,
no additional changes were made to the finding.




                                                                                                         39.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
